No. 20-1088

 

 

IN THE

Supreme Court of the United States

DAVID CARSON,
as parent and next friend of O.C., et al.,
Petitioners,
Vv

A. PENDER MARIN, in her official capacity as
Commissioner of the Maine Department of Education,
Respondent.

On Writ of Certiorari to the
United States Court of Appeals
for the First Circuit

BRIEF FOR HILLSDALE COLLEGE
AS AMICUS CURIAE IN SUPPORT OF PETITIONERS

CERTIFICATE OF COMPLIANCE

As required by Supreme Court Rule 33.1(h), I certify that the document contains
4,095 words, excluding the parts of the document that are exempted by Supreme Court
Rule 33.1(d).

I declare under penalty of perjury that the foregoing is true and correct.

Executed on September 10, 2021.

nik

Colin Casey Hogan
Wilson-Epes Printing Co., Inc.

  
